No.
OFFICE-OF THE CLERK
IN THE
SUPREME COURT OF THE UNITED STATES

WASHINGTON,D;C 20543

PROSE BRADLEY GARRETT

— PETITIONER

(Your Name)
VS.
LUMPKIN DIRECTOR OF TDCJ_RESPONDENT(S)
PROOF OF SERVICE
, do swear or declare that on this date,
I, BRADLEY GARRETT PROSE
_________________________, 20£1^, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days. AS A INCACERATED INMATE OF
ABOVE REPONDANT I HAVE NO LEGAL WAY TO MAKE COPIES REQUEST COURT COMPLETE
The names and addresses of those served are as follows: THE ABOVE SUPREME COURT HAS
RECIEVED (1) copy of petition via U.S postal sevice pre paid. RECIPIANTS
TTTMPFTN nTREPTOR OF TF.YAS DEPARTMENT OF CRTMTNAT. .TUSTTCE

PO BOX 60 HUNTSVILLE TEXAS 77342-0060
ATTORNEY OFNF.RAL OF TEXAS KFN PAXTON PO BOX12548 AUSTINTTX78711-2548

I declare under penalty of perjury that the foregoing is true and correct
Executed on

£

,20i^
X
PROSE

?ARRETT

(Signature) #2052570

